CERTIFICATE OF SERVICE
No. TBD
Benjamin Tagger
Petitioner,
v.
Strauss Group Ltd
Respondent.
'

STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, 1 depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, 1 served the parties in the above captioned matter with the
Benjamin Tagger Petition for Writ of Certiorari, by mailing one (1) true and correct copy of
the same by Fedex 2 Day prepaid for delivery to the following addresses:
Joseph J. Saltarelli
Hunton Andrews Kurth LLP
200 Park Avenue, FL 52
New York, NY 10166
(212) 309-1000
jsaltarelli@HuntonAK.com
Counsel for Strauss Group Ltd

Lucas'DeDeus

November 9, 2020
SCP Tracking: Tagger-2928 West 5th Street-Cover White

